App. 1
STATE OF ILLINOIS
IN THE CIRCUIT COURT FOR THE
SECOND JUDICIAL CIRCUIT
WAYNE COUNTY, ILLINOIS
)
)
Plaintiff,
)
)
v.
) No. 2015-L-13
THE ILLINOIS DEPARTMENT )
OF NATURAL RESOURCES,
)
)
Defendant.
)
NEXT ENERGY, LLC,

ORDER ON DEFENDANT’S MOTION
FOR JUDGMENT ON THE PLEADINGS
(Filed Dec. 3, 2018)
This cause now coming on to be heard to this, the
22nd day of October, 2018, on Defendant’s Motion for
Judgment of the Pleadings, and the Plaintiff appearing
by its attorney, and Defendant appearing by its attorney, and the Court, considering all the pleadings, exhibits, arguments of counsel, and case law cited, and
now being fully advised, FINDS:
On November 9, 2016, Plaintiff filed its Complaint
for inverse condemnation and damages pursuant to
the Fifth Amendment to the United States Constitution, Article I, Section 15 of Constitution of the State of
Illinois, and 735 ILCS 30/10-5-5.

App. 2
On August 1, 2018, Defendant filed its Motion for
Judgment on the Pleadings based upon § 2-615(e) of
the Code of Civil Procedure (Motion). The Plaintiff filed
its Response Motion for Judgment on the Pleadings
(Response) on September 13, 2018. This Court heard
arguments on October 22, 2018.
Standard of Review
Section 2-615(e) of the Code of Civil Procedure provides that “[a]ny party may seasonably move for judgment on the pleadings.” 735 ILCS 5/2-615(e). “A motion
for judgment on the pleadings asks the trial court to
review the pleadings and determine, as a matter of law,
that the pleadings fail to present a triable issue of fact.”
Mitchell v. Waddell, 189 Ill. App. 3d 179, 182 (4th Dist.
1989). “Although a motion for judgment on the pleadings is akin to a motion for summary judgment since
both suggest no issue of material fact exists, the two
motions differ in that a motion for judgment on the
pleadings submits that no issue of triable fact existed
and the movant is entitled to judgment under the averments and admissions of the pleadings, while a motion
for summary judgment may utilize affidavits and other
documents to establish the absence of a genuine issue
of a material fact.” Id. at 182-83.
Ripeness
Pursuant to 735 ILCS 5/2-615(e), Defendant
moved for judgment on the pleadings on the ground
that Plaintiff ’s claims are not ripe. In their Response,

App. 3
Plaintiff asserts its claims are ripe. As noted in Drovers
Bank of Chicago v. Village of Hinsdale, 208 III. App. 3d
147, 153 (2d Dist. 1991), this Court must examine the
issue of ripeness, “as resolution of this issue may dispose of the cause,” because “[t]he doctrine of ripeness
is generally applied to land use cases in order to avoid
premature adjudication or review of administrative action.” See Palazzolo v. Rhode Island, 533 U.S. 606, 617
(2001) (“At the outset, however, we face two threshold
considerations invoked by the state court to bar the
[takings] claim: ripeness, and acquisition which postdates regulation.”); Williamson County Regional Planning Com’n v. Hamilton Bank of Johnson City, 473 U.S.
172, 185 (1985) (“Because respondent has not yet obtained a final decision regarding the application of the
zoning ordinance and subdivision regulations to its
property, nor utilized the procedures Tennessee provides for obtaining just compensation, respondent’s
claim is not ripe.”); LaSalle Bank Nat. Ass’n v. City of
Oakbrook Terrace, 393 Ill. App. 3d 905, 911 (2009) (“Before a party may initiate an action alleging a taking,
however, the claim must be ripe.”); Sherman v. Town of
Chester, 752 F.3d 554, 564 (2d Cir. 2014) (“[Plaintiff ’s]
takings claim is ripe, and we may address the merits.”);
Benchmark Resources Corp v. U.S. 74 Fed. Cl. 458, 463
(2006) (“When considering a Fifth Amendment takings
claim, the court must first consider whether the plaintiffs’ claims have ripened.”).

App. 4
The Plaintiffs Well-Pleaded Facts
In making its decision, this Court can “consider
only the well-pleaded facts alleged in the complaint
and any exhibits attached thereto.” Drovers Bank, Ill.
App. 3d at 155. In examining the Complaint, this Court
is left with the following:
1. Plaintiff is in the oil and gas business and
acquired oil and gas leases in relation to real
estate located in Wayne County, IL, between
2009 and 2012. [Complaint, ¶ 6].
2. Plaintiff alleges that subsequent to Plaintiff obtaining these leases, Defendants imposed “a ‘moratorium’ on the issuance of such
permits for horizontal drilling and high pressure fracturing for an indefinite period of
time.” [Id. at ¶ 12].
3. The Illinois Legislature passed Public Act
98-22 which addresses high volume horizontal hydraulic fracturing and had an effective
date of June 17, 2013. [Id at ¶ 13].
4. IDNR adopted regulations related to the
issuance of permits for horizontal drilling and
fracturing in November 2014. [Id at 14].
5. Plaintiff did not plead that it applied for a
permit to drill in Wayne County—or anywhere else in Illinois prior to or during the alleged moratorium, after the passage of Public
Act 98-22, or after the adoption of regulations
by IDNR.

App. 5
The plaintiff further points the court to what it asserts is a public record kept by the Illinois Department
of Natural Resources: the Woolsey Application. From
the documents attached to Plaintiff ’s Response to Defendant’s Motion for Judgment on the Pleadings, it is
clear that a third-party, Woolsey, applied for and received a permit to conduct high volume horizontal hydraulic fracturing in the State of Illinois.
The Final, Definitive Position Rule
Defendant argues that Plaintiff ’s claims are not
ripe because Plaintiff never applied for a permit for
drilling and completion of a horizontal well with high
volume fracturing involving their mineral interests in
Wayne County, Illinois. Defendant further argues that
Plaintiff did not at any time seek information to determine whether applications would be accepted, processed, and potentially granted. The Plaintiff does not
dispute these allegations. Instead, Plaintiff argues its
claims are ripe based upon the futility exception.
The Drovers Bank court outlined the proper
method for reviewing a claim of ripeness, “a constitutional challenge to land use regulations is ripe when
the developer has received the planning commission’s
final, definitive position regarding how it will apply the
regulations at issue to the particular land in question.”
208 III. App. 3d at 153 (internal quotations omitted);
see also Palazzolo, 533 U.S. at 618 (“[t]he central question in resolving a ripeness issue, under Williamson
County and other relevant decisions, is whether

App. 6
petitioner obtained a final decision . . . in determining
the permitted use for the land.”); LaSalle, 393 Ill. App.
3d at 911 (“a claim that the application of government
regulations effects a taking is not ripe until the government entity charged with implementing the regulations has reached ‘a final, definitive position
regarding how it will apply the regulations at issue to
the particular land in question.’ ” (quoting Williamson
County, 473 U.S. at 191)); Sherman, 752 F.3d at 561 (for
a claim to be ripe, “the plaintiff must show that (1) the
state regulatory entity has rendered a final decision on
the matter[.]”). The rule is further stated as “it must be
shown, at a minimum, that there was: (1) a rejected
development plan, and (2) a denial of a variance.” Drovers, 208 Ill. App. 3d at 153.
In the instant case, Plaintiff is considered the developer and IDNR is considered the commission. It is
clear from Plaintiff ’s well-pleaded facts that Plaintiff
did not apply for a permit for drilling and completion
of a horizontal well with high volume fracturing involving their mineral interests in Wayne County, Illinois. Therefore, Plaintiff has failed to comply with the
final, definitive position rule and if the inquiry ended
there, Plaintiff ’s claims would not be ripe for this
Court to consider.
The Futility Exception
The Drovers Bank court does outline an exception,
“a landowner may avoid the final decision requirement
if attempts to comply with the requirement would be

App. 7
futile.” Ill. App. 3d at 153. The issue of ripeness is not
an issue of first impression in takings and land-use
cases. Courts have found occasion to determine a plaintiff ’s claims were ripe—in Sherman and Palazzolo—
and have found occasion to dismiss a plaintiffs claims
as not ripe for adjudication—in Drovers Bank LaSalle,
and Pollard. Here, it is clear that Plaintiff has not
pleaded facts sufficient to meet the high burden required for invocation of the futility exception. A number of cases cited by the parties merit discussion:
Sherman; Drovers Bank; Palazzolo; LaSalle; and Pollard.
In Sherman, the operative commission first announced a moratorium on approvals, which it extended. The plaintiff applied for approval that was
allowed under the moratorium and the commission refused approval. The moratorium was ended but the
commission revised its zoning regulations five times
over four years, without notifying plaintiff of the
changes and causing substantial time and effort for
plaintiff to redraft each of his proposals to comply with
the new regulations. The commission then had a
change of engineer to review the plaintiff ’s proposal, a
change of chairman, and a host of additional requirements for plaintiff to complete. Id All said, over almost
a decade, “[b]etween taxes, interest charges, carrying
costs, and expenses, [plaintiff ] spent approximately
$5.5 million on top of the original $2.7 million purchase
price . . . [and] became financially exhausted to the
point of facing foreclosure and possible bankruptcy.”
Id. at 560. The Sherman court found that “the

App. 8
[commission] used . . . repetitive and unfair procedures, thereby avoiding a final decision,” and reversed
the trial court on that basis. Id. at 563.
In Palazzolo, the developer was denied two separate applications two years apart. The court found that
these were sufficient to demonstrate that the final, definitive position rule had been met by the developer
and that the claims were ripe for adjudication.
In Drovers Bank, the developer submitted a plan
to the operative commission which was rejected. The
developer stated in its brief to the Second District Appellate Court that it had requested a “textual amendment of the ordinance which would exclude parking
from the building area computation.” Id. at 155. The
court held that it could “consider only the well-pleaded
facts alleged in the complaint and any exhibits attached thereto,” and the developer did not make a
showing that it met the final definitive position rule.
Id. The Drovers Bank court additionally found that the
developer “ha[d] not demonstrated that attempts to
comply with the final decision requirement would be
futile,” and affirmed the dismissal of the developer’s
suit. Id.
In LaSalle, the plaintiff alleged that when the city
rezoned its property, the plaintiff would be limited to
building approximately 300 dwelling units, as opposed
to the more than 2,700 units it could have built on the
residential portion of the property as previously zoned.
LaSalle Bank Nat. Ass’n v. City of Oakbrook Terrace,
393 111. App. 3d 905, 907-09 (2009). This rezoning

App. 9
along with other regulations, plaintiff contended, constituted a taking without just compensation. Id. at 909.
The court observed that the plaintiffs’ complaint contained no factual allegations showing the plaintiffs
sought or received a final decision from the defendants
concerning any formal development plan for their
property, and, as such, the plaintiffs’ claims were premature. Id. at 912. The plaintiffs alleged submitting any
such proposal would have been futile. Id The plaintiffs
pointed to communications between a third-party developer and the defendants, which the plaintiffs asserted showed the defendants intended to strictly
adhere to the zoning restrictions.
The court determined that, while the communications indicated that the developments proposed by the
third-party would likely meet resistance from the city,
the documentation was not sufficient to satisfy the finality requirement. Id (citing Northwestern University
v. City of Evanston, 74111. 2d 80, 89 (1978) (“The exhaustion requirement cannot be avoided simply because the relief may be, or even probably will be,
denied by the local authorities”)). The court further
stated that the documents cited by the plaintiffs did
not show “to a reasonable degree of certainty the extent of development that would be allowed[.]” Id at
913.
In Pollard, the plaintiffs filed their complaint for
inverse condemnation and damages, which consisted of
three counts: (1) violation of the Fifth Amendment to
the United States Constitution; (2) violation of Article
1, Section 15 of the Illinois Constitution; and (3)

App. 10
inverse condemnation pursuant to Illinois Compiled
Statutes Section 735 ILCS 30/10-5-65. [Pollard, May 9,
2016 Order, pp. 1-2]. The claims in Pollard are identical
to the claims in this case. [Compl. at ¶ 17]. In determining that the plaintiffs had not pleaded facts sufficient to establish the futility exception, the court in
Pollard identified the first major problem with the
plaintiffs’ futility argument: “The Plaintiffs never
showed that they applied for a permit for drilling and
completion of a horizontal well with high volume fracturing involving their mineral interests in any county
in Illinois and were denied.” Pollard, May 2, 2016 Order at pp. 7-8. “The Plaintiffs even failed to show that
anyone else had applied for a permit for drilling and
completion of a horizontal high volume fracturing.” Id.
at 8. The court in Pollard aptly summarized why the
plaintiffs’ claims in that case were not ripe:
[T]his Court is left to imagine the results that
could be obtained through the Illinois courts
if the Plaintiffs’ claims were allowed. By analogy, a plaintiff could file a suit against a company stating that the plaintiff knew of a nonparty applicant in another county who had
applied for a job, the non-party applicant then
informs the company that the non-party applicant no longer wants the job, and the plaintiff sues the company based upon the nonparty applicant’s “denial” for damages including an unspecified number of years’ salary for
a job for which Plaintiff never applied. Until

App. 11
instructed by the Appellate Court to do otherwise, this Court will not entertain such
claims.
[Id. at 9-10].
First and foremost, here, the Plaintiff is confronted with the fact that it never applied for a permit
from IDNR, let alone for a permit for drilling and completion of a horizontal well with high volume fracturing involving their mineral interests in Wayne County,
Illinois and was denied. The Plaintiff also failed to
plead that anyone else had applied for a permit for
drilling and the completion of a horizontal well with
high volume fracturing. As such, Plaintiffs allegation
of a moratorium is not well-pleaded.
The only facts pleaded by the Plaintiff with respect to futility, in addition to the alleged moratorium,
are those of the IDNR regulations. Plaintiff cites regulations which it alleges are onerous and overreaching.
However, the Plaintiff ’s futility argument is belied by
its own submission of documents showing a third
party, Woolsey, applied for and received a permit to
conduct high volume horizontal hydraulic fracturing in
Illinois. From the issuance of the Woolsey permit and
the Court’s review of 62 Ill. Admin Code. 245.100, et
seq., for the purposes of Defendant’s Motion, the Court
finds the regulations are not so onerous and overreaching that they support the Plaintiff ’s invocation of the
futility exception.

App. 12
Conclusion
Therefore, this Court finds that Plaintiff has failed
to meet the futility exception to avoid the final, definitive position rule and its claims are not ripe for adjudication.
IT IS HEREBY ORDERED AND ADJUDGED:
A. Defendant’s Motion for Judgment on the
Pleadings pursuant to §2-615(e) of the Code of
Civil Procedure on the grounds that Plaintiff ’s claims are not ripe for adjudication is
GRANTED and this cause is DISMISSED
with prejudice.
B.

This is a final and appealable order.

ENTERED: NOV 29 2018 /s/ Kimbara G. Harrell
Judge

App. 13
2020 IL App (5th) 180582-U
NO. 5-18-0582
IN THE
APPELLATE COURT OF ILLINOIS
FIFTH DISTRICT
NOTICE

NOTICE

Decision filed 04/21/20.
The text of this decision
may be changed or corrected prior to the filing
of a Petition for Rehearing or the disposition of
the same.

This order was filed under
Supreme Court Rule 23
and may not be cited as
precedent by any party
except in the limited circumstances allowed under Rule 23(e)(1).

NEXT ENERGY, LLC,
Petitioner-Appellant,
v.
THE DEPARTMENT OF
NATURAL RESOURCES,
Respondent-Appellee.

)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
Wayne County.
No. 15-L-13
Honorable
Kimbara G. Harrell,
Judge, presiding

PRESIDING JUSTICE WELCH delivered the
judgment of the court. Justices Moore and
Wharton concurred in the judgment.
ORDER
¶ 1 Held:

The trial court’s decision to grant the Illinois Department of Natural Resources’
motion for judgment on the pleadings is

App. 14
affirmed where Next Energy, LLC, failed
to apply for a permit to conduct high-volume, horizontal hydraulic fracturing on
its oil and gas leases in Wayne County, Illinois and, thus, its regulatory takings
claim was not ripe for adjudication.
¶ 2 This action commenced when the petitioner, Next
Energy, LLC, filed a complaint against the respondent,
the Illinois Department of Natural Resources (Department), alleging that the Department’s regulations
on high-volume, horizontal hydraulic fracturing
amounted to a regulatory taking of certain oil and gas
leases owned by Next Energy. Thereafter, the Department filed a motion for judgment on the pleadings pursuant to section 2-615(e) of the Code of Civil Procedure
(Code) (735 ILCS 5/2-615(e) (West 2016)), arguing, inter alia, that the complaint should be dismissed because it alleged a regulatory takings claim that was
not ripe for adjudication. On December 3, 2018, the circuit court of Wayne County dismissed Next Energy’s
complaint, finding that the regulatory takings claim
was not ripe because Next Energy had failed to apply
for a fracturing permit from the Department and that
it had failed to plead facts to demonstrate that seeking
a permit would have been futile. For the following reasons, we affirm the decision of the trial court.
¶3

I. BACKGROUND

¶ 4 Next Energy is a limited liability company registered in Wyoming and authorized to do business in Illinois. Between 2009 and 2012, Next Energy acquired

App. 15
five-year oil and gas leases in Wayne County, Illinois,
for the purpose of extracting oil from the leaseholds
through horizontal drilling and high-volume fracturing in accordance with the then-existing laws. There
was no other feasible basis for the extraction of oil from
these leases.
¶5

A. The Fracturing Permit Process Under
the Hydraulic Fracturing Act and the
Adopted Regulations

¶ 6 In mid-2013, after Next Energy acquired the oil
leaseholds, the Illinois General Assembly enacted the
Hydraulic Fracturing Regulatory Act (Act). Pub. Act
98-22 (eff. June 17, 2013) (codified at 225 ILCS 732/
1-1 et seq. (West 2014)). The Act prohibits the use of
high-volume, horizontal hydraulic fracturing without
first obtaining a permit from the Department, imposes
substantive rules for construction and operation of
wells, and sets standards for the fracturing process itself. 225 ILCS 732/1-30, 1-70, 1-75 (West 2014).
¶ 7 Because this case deals with the permit process,
we will discuss in detail the procedures set for obtaining a fracturing permit. Section 1-35(a)(3) of the Act
requires every applicant to register with the Department and submit proof of insurance of at least $5 million to cover injuries, damages, or loss related to
pollution. Id. § 1-35(a)(3). In its permit application, the
applicant must submit detailed descriptions of the proposed well and fracturing operations; disclose the proposed location for the well site; disclose water sources,

App. 16
chemicals, and proppants to be used; and provide plans
for casing and cementing, flowback storage and disposal, containment practices and well-site safety, and
traffic management for nearby roads. Id. § 1-35(b). The
Act allows the Department to require an applicant to
submit other “relevant information.” Id. § 1-35(b)(20).
The Act also requires the applicant to pay a $13,500
nonrefundable permit application fee. Id. § 1-35(e).
¶ 8 A 30-day public comment period must begin 7 calendar days after the Department receives a permit application. Id. § 1-45(a). Within that 30 days, any person
may file written comments to the Department concerning any portion of the permit application and any issue
relating to the applicant’s compliance with the requirements of the Act and any other applicable laws. Id. § 145(c). The Department may ask the applicant to
respond to the substantive public comments. Id. § 145(d). Any person having an interest that is or may be
adversely affected by the proposed fracturing may file
written objections to the permit and request a public
hearing during the comment period. Id. § 1-50(a).
¶ 9 The Department then has 60 days from receipt of
the permit application to approve, with any conditions
that it deems necessary, or reject the permit application unless the deadline is waived by the applicant Id.
§ 1-35(i). During the review period, if the Department
determines that the permit application is incomplete,
does not meet the statutory requirements, or requires
additional information, the Department shall allow
the applicant to correct the deficiencies and provide
the Department with any information requested to

App. 17
complete the application. Id. § 1-35(j). The Department
may reject the application if the applicant fails to provide adequate supplemental information within the review period. Id. The Department may approve an
application only if it meets the statutory requirements
set forth in the Act. Id. § 1-53(a). The Department’s decision to approve or deny a permit is considered a final
administrative decision subject to judicial review under the Administrative Review Law (735 ILCS 5/3-101
et seq. (West 2014)). 225 ILCS 732/1-53(d) (West 2014).
If the Department issues a permit, the permittee must
comply with all provisions of the Act and all other local,
state, and federal rules and regulations, and all statutorily required plans must be conditions contained in
the permit. Id. § 1-55(a). The Department has discretion to impose other permit conditions that it deems
necessary. Id. § 1-53(a).
¶ 10 The Act permits the Department to adopt rules
as necessary to accomplish the purposes of the Act. Id.
§ 1-130. Pursuant to this authority, the Department
adopted regulations related to the issuance of permits
in November 2014. 38 Ill. Reg. 22052 (eff. Nov. 14,
2014). The rules reiterate the Act’s requirements pertaining to permit applications, registration, standards
for issuing a permit, and deadlines for public notices,
comment periods, hearings, and the Department’s permit decision. 62 Ill. Adm. Code 245.120, 245.200,
245.210, 245.250, 245.260, 245.270, 245.300 (2014).
When determining whether to grant a permit, the
Department considers the complete application, all
written public comments, any hearing information,

App. 18
and the applicant’s response to public comments. Id.
§ 245.300(b).
¶ 11 The Department will issue the permit only if the
applicant has satisfied nine regulatory requirements,
including, the proposed well-site locations meeting the
specific statutory requirements, the plans submitted
with the application being “adequate and effective” to
comply with the Act and the administrative rules, and
the fracturing operations being conducted in a manner
that protects the public health, public safety, property,
wildlife, aquatic life, and environment and prevents
pollution or diminution of any water source. Id.
§ 245.300(c). The applicant is also required to produce
a water-use self-certificate, which explains the applicant’s compliance with the Water Use Act (525 ILCS
45/0.01 et seq. (West 2014)) and applicable regional water supply plans, and provide proof of delivery of the
plan to the local Soil and Water Conservation District
and any community water supply within 20 miles of
the proposed water source. Id. § 245.2 1 0(a)(9).
¶ 12 Like the Act, each permit requires the permit
holder to comply with the Act and the administrative
rules, and the permit application, plans, maps, and diagrams submitted with the application are incorporated into the permit as conditions. Id. § 245.320(a),
(b). The rules allow the Department to impose additional conditions that, based on the review of the permit application, it deems necessary to promote the
goals of the Act and its rules. Id. § 245.320(c). Once the
permit is issued, the rules require a permit holder to
seek modification of the permit where the holder

App. 19
wishes to take actions that “materially deviate from
the original permit.” Id. § 245.330(a). Any permit modification application for a significant deviation shall be
accompanied by a nonrefundable fee of $13,500 and
will be reviewed and approved or rejected as if it is a
new permit application. Id. § 245.330(c).
¶ 13

B. Next Energy’s Complaint

¶ 14 On November 9, 2015, Next Energy filed a onecount complaint against the Department, alleging that
the Department’s regulations on high-volume, horizontal hydraulic fracturing amounted to a regulatory
taking of its oil and gas leases in Wayne County. Specifically, the complaint made the following allegations.
Sometime in mid-2012, after Next Energy acquired the
leases, the Department imposed a “moratorium” on the
issuance of fracturing permits for an indefinite period
of time, and no applications for horizontal drilling and
high-pressure hydraulic fracturing were processed under the then-existing laws. Thereafter, although Public
Act 98-22 was enacted and had an effective date of
June 17, 2013, the Department failed to adopt regulations related to the issuance of permits until November
2014, which made it impossible for leaseholders to seek
fracturing permits because it was “well known in the
industry” that any application would not be reviewed
or approved.

App. 20
¶ 15 The Department then resumed accepting applications in November 2014, after the rules fluid1 beyond
that contemplated by section 1-5 of the Act (225 ILCS
732/1-5 (West 2014)); (13) that 62 Ill. Adm. Code
245.210(a)(9) (2014) converted the certification requirement by the Act into a notification with proof of
delivery to every Soil and Water Conservation District
and any community water supply within 20 miles of
the proposed water source with the purpose of attracting the largest number of people possible to incite rebuttal to prevent fracturing operations; and (14) that
62 Ill. Adm. Code 245.210(d) (2014) required insurance
that was neither referred to nor authorized by the Act.
¶ 16 The complaint asserted that, because the permit
application process was economically futile and impractical, the Department had effectively committed a
regulatory taking of Next Energy’s oil and gas leasehold interests without compensating Next Energy for
the fair value of those leaseholds. Next Energy requested that the trial court determine that a taking
had occurred and to order the Department to institute
eminent-domain proceedings for the purpose of determining just compensation.
¶ 17 On January 19, 2016, the Department filed a
motion to dismiss pursuant to section 2-615 of the
Code (735 ILCS 5/2-615 (West 2014)). In the motion,
the Department contended, inter alia, that Next
1

Section 1-5 of the Act defined base fluid as “the continuous
phase fluid type, including, but not limited to, water used in high
volume horizontal hydraulic fracturing operation.” 225 ILCS
732/1-5 (West 2014).

App. 21
Energy failed to plead facts showing a regulatory taking in that it alleged no facts in support of its assertion
that the only economically viable use of the leases was
extraction of oil through high-volume, horizonal hydraulic fracturing; the Department asserted that Next
Energy pled “nothing to suggest that there [was] anything unique about its property that prohibit[ed] extraction of oil and gas by other means.” On November
21, 2016, the trial court denied the Department’s section 2-615 motion to dismiss, stating that it was not
“prepared to say there [are] no set of facts in support
of the allegations of the Complaint that would entitle
[Next Energy] to relief.”
¶ 18 On August 1, 2018, the Department filed a motion for judgment on the pleadings pursuant to section
2-615(e) of the Code (id. § 2-615(e)), arguing that Next
Energy’s takings claim was not ripe for adjudication.
Specifically, the Department contended that Next Energy had failed to plead that it had applied for the permit to conduct horizontal fracturing on its Wayne
County wells, that Next Energy had also failed to plead
that it had reached out or sought information from the
Department concerning the process of applying for a
drilling permit, and that Next Energy had failed to
plead sufficient facts to demonstrate that pursuing a
final decision would have been futile.
¶ 19 On September 13, 2018, Next Energy filed a response to the Department’s motion for judgment on the
pleadings, contending that two exceptions to the ripeness doctrine applied: futility and unfair/repetitive
procedures. Next Energy contended that applying for

App. 22
a fracturing permit would have been futile because,
prior to the enactment of the current statute and the
regulations, there had been a moratorium on horizontal fracturing permits as the Department would not
consider any permit applications under the former law;
that, between the effective date of the Act and the enactment of the regulations, there was no process in
place to apply for a horizontal drilling permit; and that
the regulations that were enacted regarding the permit application process were so “onerous, ambiguous,
and ill-defined that it was not, in any practical sense,
possible to comply.”
¶ 20 In support of its futility argument, Next Energy
attached portions of an application that time.2 The attached documents indicated that Woolsey obtained the
required insurance to register as a potential applicant
for a permit on August 1, 2015 (expiring August 1,
2016); that it submitted its first registration to apply
for a permit thereafter; that it submitted another registration on February 2, 2016; and that the registration
was approved on February 23, 2016, which meant that
Woolsey was permitted to submit a permit application.
On August 1, 2016, Woolsey renewed its liability insurance as required to continue with the application process. On May 22, 2017, Woolsey submitted its initial
application for a permit to drill one well in White
2

Next Energy contended that the Woolsey application was a
matter of public record and, as such, the trial court could take
judicial notice of it. See Muller v. Zollar, 267 Ill. App. 3d 339, 341
(1994) (judicial notice is proper where the document is part of the
public record).

App. 23
County along with the required supporting documentation. On May 26, 2017, the Department notified
Woolsey that the public comment period would begin
on May 29, 2017, and would end on June 27, 2017. On
June 5, 2017, the Department notified Woolsey that its
permit application was deficient and identified 10 areas in which the Department required additional information or documents, or the application could be
rejected. Subsequently, Woolsey submitted a supplemental application addressing the listed deficiencies.
The public comment period was extended as a result of
this supplemental application, a public hearing was
held on August 2, 2017, and a second public comment
period began on August 4, 2017. The Department received various written comments about the proposed
permit, which noted deficiencies in the Woolsey application as well as stated concerns about the environmental effects of fracturing; one such written comment
was from the Natural Resources Defense Council, an
environmental action group with offices in New York,
Washington D.C., Chicago, and Beijing.
¶ 21 On August 14, 2017, the Department required
Woolsey to respond to the issues raised in the public
comment period and to provide additional documentation. Woolsey submitted its second supplemental application on or about August 25, 2017. Woolsey was also
required to submit a third supplemental application on
or about August 31, 2017, with additional documentation. On August 31, 2017, the Department notified
Woolsey that its application for a permit had been
granted. The permit contained 86 conditions that must

App. 24
be met for Woolsey to utilize its permit. However, on
October 30, 2017, Woolsey requested that the Department release its permit and withdraw its pending permit application. In the letter, Woolsey did not
specifically state a reason for withdrawing its application but acknowledged that, if in the future, it determined that it was economical to pursue the project
contemplated by the permit, it would be required to
begin the permit process in accordance with the applicable statutes and regulations in effect at that time. In
response, the Department, by letter dated November 1,
2017, released Woolsey’s permit, noting that the fees
paid were nonrefundable and, if Woolsey chose to reapply, there would be no credit for already-paid fees.
¶ 22 Relying on Woolsey’s experience, Next Energy
contended that the entire permit application process
was futile, onerous, and financially impractical. Pointing to the financial costs associated with the application process and the lack of definable criteria in the Act
and regulations, Next Energy contended that it would
be futile for it to apply for a permit because it would
likely have the same experience as Woolsey. Next Energy argued that the Department had burdened Woolsey’s property interest, the oil and gas leasehold, with
unfair and onerous procedures, which were indicated
by the 86 conditions attached to the permit, and that
the procedures made it impossible for Woolsey to proceed with the extraction of the oil from the property.
Next Energy pointed to the public comments received
during Woolsey’s public comment period and noted
that, although the comments were received from

App. 25
organizations having no presence or interest in White
County and from individuals who stated no interest or
residence in White County, Woolsey was required to respond to those comments and submit additional documentation. Next Energy noted that the Woolsey
application was the only application submitted to date.
¶ 23 A hearing on the motion for judgment on the
pleadings was held on October 22, 2018. During the
hearing, the Department argued that the fact that
Woolsey successfully navigated the permit application
process demonstrated that the regulations were not
too onerous to comply with and that it was possible for
Next Energy to be issued a drilling permit. The Department acknowledged that Woolsey voluntarily withdrew its permit but noted that its withdrawal letter did
not, on its face, show the reason for the withdrawal; the
Department contended that the letter did not show
that Woolsey withdrew the permit because complying
with the permit conditions would be too onerous.
¶ 24 In response, Next Energy argued that the only
question at this stage in the proceedings was whether
the pleadings raised a question of fact that must go to
trial. Next Energy contended that, at a minimum, a
question of fact existed as to whether the entire application process was futile, which was evidenced by
Woolsey’s experience with the permit application process. After hearing the arguments, the trial court
granted the Department’s motion for judgment on the
pleadings.

App. 26
¶ 25 On December 3, 2018, the trial court entered a
written order, which reiterated that it was granting the
Department’s motion for judgment on the pleadings. In
the order, the court noted that, when ruling on a motion for judgment on the pleadings, it could only consider the well-pleaded facts alleged in the complaint
and any attached exhibits. Examining the complaint,
the court noted that it was left with the following allegations: that Next Energy acquired five-year oil and
gas leases in Wayne County; that subsequent to obtaining the leases, the Department imposed a moratorium
on the issuance of permits for horizontal drilling and
high-pressure fracturing for an indefinite period of
time; that Public Act 98-22, which addressed high-volume, horizontal hydraulic fracturing, had an effective
date of June 17, 2013; and that the Department
adopted regulations related to the issuance of permits
for horizontal drilling and fracturing in November
2014. The court noted that Next Energy did not plead
that it applied for a permit to drill in Wayne County (or
anywhere else in Illinois) before or during the alleged
moratorium, after the passage of Public Act 98-22, or
after the adoption of the Department’s regulations.
¶ 26 The trial court found that Next Energy had not
pleaded sufficient facts to meet the high burden required to invoke the futility exception to the ripeness
doctrine. The court found that Next Energy’s allegation
regarding a moratorium was not well pleaded because
it never alleged that it applied for a permit and was
denied. The court also concluded that Next Energy’s
futility argument, with regard to the Department’s

App. 27
regulations, was “belied by its own submission of documents” showing that Woolsey applied for and received
a permit to conduct high-volume, horizontal hydraulic
fracturing in Illinois. Thus, the court found, from the
issuance of the Woolsey permit and its own review of
the Department’s regulations, that the regulations
were not so onerous and overreaching to support Next
Energy’s invocation of the futility exception. Accordingly, the court dismissed Next Energy’s complaint
with prejudice because its claims were not ripe for adjudication. Next Energy appeals.
¶ 27
¶ 28

II. ANALYSIS
A. Judgment on the Pleadings

¶ 29 This appeal comes before this court on the trial
court’s grant of a judgment on the pleadings in favor of
the Department pursuant to section 2-615(e) of the
Code (735 ILCS 5/2-615(e) (West 2016)). Any party may
seasonably move for a judgment on the pleadings. Id.
A motion for a judgment on the pleadings is similar to
a motion for summary judgment, but it is limited to the
pleadings. Allstate Property & Casualty Insurance Co.
v. Trujillo, 2014 IL App (1st) 123419, ¶ 15. A judgment
on the pleadings is proper only where the pleadings
disclose that there is no genuine issue of material fact
and that the movant is entitled to judgment as a matter of law. Indian Harbor Insurance Co. v. City of
Waukegan, 2015 IL App (2d) 140293, ¶ 12. When ruling
on a motion for judgment on the pleadings, the court
will consider only those facts apparent from the face of

App. 28
the pleadings, matters subject to judicial notice, and
judicial admissions in the record. Id. “A party moving
for a section 2-615(e) judgment on the pleadings concedes the truth of the well-pleaded facts in the nonmovant’s pleadings.” Allstate Property & Casualty
Insurance Co., 2014 IL App (1st) 123419, ¶ 16. For purposes of resolving the motion, the court must take as
true all reasonable inferences from those facts but disregard any conclusory allegations and surplusage. Id.
Our review of a section 2-615(e) ruling is de novo.
M.A.K. v. Rush-Presbyterian-St. Luke’s Medical Center,
198 Ill. 2d 249, 255 (2001).
¶ 30 B. Takings Claims and the Ripeness Doctrine
¶ 31 The takings clause of the fifth amendment prohibits the government from taking private property for
public use without just compensation. U.S. Const.,
amend. V. The takings clause is made applicable to the
states through the fourteenth amendment. Davis v.
Brown, 221 Ill. 2d 435, 443 (2006). The Illinois Constitution of 1970 provides that private property shall not
be taken or damaged for public use without just compensation. Ill. Const. 1970, art. I, § 15. There are two
types of takings: physical takings and regulatory takings. Estate of Hage v. United States, 687 F.3d 1281,
1286 (Fed. Cir. 2012). A physical taking generally occurs where there is a direct government appropriation
or a physical invasion of private property. Id. A regulatory taking occurs where the government action does
not encroach upon or occupy the private property, but
it affects or limits the property’s use to such an extent
that a taking occurs. Id. “Although property may be

App. 29
regulated to a certain extent, a governmental regulation that goes too far will be considered as a taking.”
(Internal quotation marks omitted.) LaSalle Bank National Ass’n v. City of Oakbrook Terrace, 393 Ill. App. 3d
905, 911 (2009).
¶ 32 However, before a party may initiate an action
alleging a regulatory taking, the claim must be ripe. Id.
A regulatory takings claim is not ripe until the government entity charged with implementing the regulations has reached a final, definitive decision concerning
the application of the regulations to the particular
property at issue. Id. “This ripeness or finality rule
ensures that the courts can properly assess the scope
or existence of a taking.” Anaheim Gardens v. United
States, 444 F.3d 1309, 1315 (Fed. Cir. 2006). A court
cannot resolve a takings claim without facts about the
extent of permitted development or the restriction on
the land. Id.; Palazzolo v. Rhode Island, 533 U.S. 606,
620-21 (2001).
¶ 33 Next Energy acknowledges that it never applied
for a fracturing permit for its Wayne County wells pursuant to the procedure set out in the Act. Thus, its takings claim would be considered unripe unless the final
decision requirement was excused. There are two exceptions where the lack of a final decision may be
excused: futility and unfair/repetitive procedures.
Sherman v. Town of Chester, 752 F.3d 554, 561 (2d Cir.
2014). Although these are distinct concepts, the
analyses for the two are the same. Id. “A claimant can
show its claim was ripe with sufficient evidence of the
futility of further pursuit of a permit through the

App. 30
administrative process.” Anaheim Gardens, 444 F.3d at
1315; see also Morris v. United States, 392 F.3d 1372,
1376 (Fed. Cir. 2004) (a failure to obtain a final decision
may be excused under the futility exception where an
agency’s decision makes clear that pursuing remaining
administrative remedies would not result in a different
outcome). Also, government authorities may not burden property by imposing repetitive or unfair land-use
procedures to avoid a final decision. Palazzolo, 533 U.S.
at 621. Although a court cannot determine whether a
regulation goes too far unless it knows how far the regulation goes, the ripeness doctrine does not require a
landowner to submit applications for their own sake.
Id. at 622. The property owner bears the burden of
pleading facts to establish that pursuing a final decision would have been futile. LaSalle Bank National
Ass’n, 393 Ill. App. 3d at 912.
¶ 34

C. Relevant Cases Applying
the Futility Exception

¶ 35 In Palazzolo, plaintiff owned waterfront property in Rhode Island, a large portion of which was salt
marshland subject to tidal flooding. Palazzolo, 533 U.S.
at 613. Plaintiff submitted multiple requests to develop the property, which would have required substantial fill to accommodate the building of significant
structures. Id. at 613-14. However, the applications
were rejected. Id. at 614. Years later, plaintiff submitted a new proposal to construct a wooden bulkhead and
to fill the entire marshland area, but it was rejected
because it did not comply with a state agency wetland

App. 31
regulation. Id. at 614-15. Subsequently, plaintiff submitted a plan for a private beach club, which was denied for the same reason. Id. at 615. Plaintiff then filed
a complaint for inverse condemnation, asserting that
the application of the governing regulations to his
property constituted a taking without just compensation in violation of the fifth and fourteenth amendments. Id. The Rhode Island Supreme Court found that
the claim was not ripe because there remained doubt
regarding the extent of the development the state
agency responsible for applying the regulations would
allow. Id. at 616. On certiorari, the United States Supreme Court held that plaintiff was not required to
submit further applications to develop the property because the agency’s decisions made clear that the state
regulations prevented plaintiff from engaging in any
filling or development activity on the marshland. Id. at
621. Because no additional application was needed to
clarify the extent of permitted development, plaintiff
had no further obligation to pursue his claim before the
agency, and the issue was ripe for judicial review. Id. at
625-26.
¶ 36 Similarly, in Sherman, the Second Circuit Court
of Appeals held that a developer’s takings claim
against the town was ripe even though the town zoning
board had not yet reached an official decision on the
developer’s application for subdivision approval. Sherman, 752 F.3d at 561-63. For nearly a decade, the zoning board obstructed the developer’s attempts to obtain
subdivision approval by changing the zoning regulations. Id. at 557. Based on the town’s decade of

App. 32
obstruction, the court concluded that a final decision
would be futile because the town used, and would
likely continue to use, repetitive and unfair procedures
to avoid making a final decision. Id. at 563.
¶ 37 In contrast, in the Second District case of
LaSalle Bank National Ass’n, the plaintiffs-landowners contended that, although it had never submitted a
proposed development plan to the city, doing so was futile because correspondence between the municipal
planner and a third party (the developer for the
owner’s property) demonstrated that officials had signaled their intent to strictly adhere to zoning rules unfavorable to the planned development. LaSalle Bank
National Ass’n, 393 Ill. App. 3d at 912. The appellate
court affirmed the dismissal of plaintiffs’ complaint,
finding that it was not ripe because plaintiffs had
never sought approval for any development on the subject property. Id. at 914-15. In making this decision, the
court distinguished Palazzolo, noting that Palazzolo
held that a decision was final when the government
entity charged with implementing the regulations in
question, after rejecting development proposals, made
clear that additional proposals would be denied. Id. As
plaintiffs had not sought approval for any development
on the subject property, the court found that there was
“no indication that the extent of development that
would be allowed on the subject property was determined in a concrete way or that any development proposal would be automatically rejected.” Id. at 914.

App. 33
¶ 38

D. Present Case

¶ 39 The Department contends that Next Energy has
failed to sufficiently allege that its regulatory takings
claim was ripe because it did not assert that it sought
relief under the regulation, i.e., applied for the fracturing permit under the procedures set forth in the Act
and the regulations. Because this is from an order dismissing Next Energy’s complaint, the allegations in
the complaint are considered true. Allstate Property &
Casualty Insurance Co., 2014 IL App (1st) 123419,
¶ 16. As for the allegations in a pleading, a pleader is
only required to plead ultimate facts to be proved; the
pleader is not required to set out the evidence. Casualty Insurance Co. v. Hill Mechanical Group, 323 Ill.
App. 3d 1028, 1034 (2001).
¶ 40 Next Energy made the following factual allegations in its complaint: (1) that it acquired five-year oil
and gas leases for the specific purpose of developing
the leaseholds through horizontal drilling and highvolume fracturing in accordance with the then-existing
law; (2) that no other feasible basis existed for extraction of oil from those leaseholds; (3) that, after acquiring the leaseholds, the Department imposed a
moratorium on the issuance of permits for fracturing
for an indefinite period of time; (4) that the legislature
passed Public Act 98-22, effective June 17, 2013, which
set out the application procedures for the permit process; (5) that the Department did not adopt regulations
related to the issuance of the permits until November
2014; (6) that it was impossible to apply for a permit
between June 2013 and November 2014 because it was

App. 34
well known that the applications would not be reviewed; and (7) that the statutory and regulatory provisions were so odious, ill-defined, and burdensome as
to render application for the permit economically futile
and impractical. Next Energy then identified the relevant provisions in the statute and regulations that it
considered ambiguous and burdensome. The complaint
also contended that the futility exception applied to excuse Next Energy’s failure to seek a final decision for
the above-stated reasons.
¶ 41 Relying on LaSalle and the federal cases analyzing the futility exception, we find that Next Energy
has not alleged sufficient facts to support its claim of
futility. Absent from Next Ener’s complaint are an factual allegations showing that it sought a fracturing
permit under the Act and the adopted regulations in
the approximately three years that were remaining on
its oil and gas leases (Next Energy obtained five-year
leases in mid-2012, and the Department adopted the
regulations in late 2014). By failing to follow the procedures created by the Department, Next Energy has
denied the Department an opportunity to apply the
regulations to determine whether to issue a fracturing
permit and, if so, under what conditions the permit
should be issued. Unlike the futility cases cited by
Next Energy, the present case does not involve a situation in which a regulatory agency, after rejecting submitted permit applications, makes it clear that
additional applications would be denied. Like the
LaSalle plaintiff, Next Energy has not applied for a
fracturing permit under the Act and new regulations;

App. 35
Next Energy has not even contacted the Department
to inquire about its likelihood of success in obtaining
such a permit. Thus, the impact of the regulations on
Next Energy’s oil and gas leases is not reasonably certain.
¶ 42 In asking us to apply the futility exception here,
Next Energy asks us to hold that a plaintiff can show
futility without ever trying to seek a permit from the
regulatory agency or without a history of engaging
with that agency regarding the regulations at issue.
Next Energy wants us to hold that a plaintiff can
demonstrate futility just by showing a nonparty applicant’s experience in seeking a permit. This is contrary
to case law. The cases applying the futility exception
have not eliminated the requirement that the party
claiming a regulatory taking must follow reasonable
and necessary steps to allow the regulatory agency to
exercise its discretion. See Kawaoka v. City of Arroyo
Grande, 17 F.3d 1227, 1232 (9th Cir. 1994) (the futility
exception does not alter a party’s obligation to file at
least one meaningful development proposal); Freeman
v. United States, 875 F.3d 623, 628 (Fed. Cir. 2017) (the
private party must follow reasonable and necessary
steps to allow the regulatory agency to exercise its full
discretion). Because Next Energy has made no such attempt to obtain a fracturing permit, it is impossible for
the trial court to determine the full extent to which the
Department’s fracturing rules would have burdened
Next Energy’s lease or whether its permit application
would have been automatically rejected. Although
Next Energy uses a nonparty’s experience with the

App. 36
fracturing permit process to support its claim of futility, we note that the nonparty’s experience in seeking
a permit would not necessarily be Next Energy’s experience. Further, we find that the nonparty’s experience
cannot be characterized as futile when that applicant
actually received a permit, albeit with conditions.
¶ 43 Moreover, we find unpersuasive Next Energy’s
argument that the high cost of applying for the permit
demonstrates the economic futility of complying with
the regulations. We recognize that a nonrefundable fee
of $13,500 and other potential nonrefundable fees for
amending the permit may be burdensome. However, at
this point, we do not know how much it would cost Next
Energy to obtain a fracturing permit, and we cannot
know until the Department has had some meaningful
opportunity to exercise its discretion. Thus, we find
that the trial court did not err in granting the Department’s motion for judgment on the pleadings.
¶ 44

III. CONCLUSION

¶ 45 For the foregoing reasons, we affirm the trial
court’s dismissal of Next Energy’s complaint.
¶ 46 Affirmed.

App. 37
[SEAL]
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
Harvey Baker &
Reinhardt, P.C.
Attorneys at Law
2029 Broadway
Mt. Vernon IL 62864

FIRST DISTRICT OFFICE
160 North LaSalle Street,
20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185
September 30, 2020

In re: Next Energy, LLC, petitioner, v. The
Department of Natural Resources,
respondent. Leave to appeal, Appellate
Court, Fifth District.
125999
The Supreme Court today DENIED the Petition for
Leave to Appeal in the above entitled cause.
The mandate of this Court will issue to the Appellate
Court on 11/04/2020.
Very truly yours,
/s/ Carolyn Taft Gosboll
Clerk of the Supreme Court

